No. 20-1363

 

 

INTHE

Supreme Court of the United States

MERIT MEDICAL SYSTEMS, INC.,

Cross-Petitioner,
v.

NAzIR KHAN, IFTIKHAR KHAN,
Cross-Respondents.
ON CROSS-PETITION FOR A WRIT OF CERTIORARI TO THE

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

RULE 33.1(h) WORD COUNT CERTIFICATE
FOR REPLY TO BRIEF IN OPPOSITION

 

 

As required by Supreme Court Rule 33.1(h), I hereby certify that according to
the word-processing software used to prepare it, the accompanying Reply to Brief in
Opposition contains 2,994 words (excluding the parts of the document exempted by
Supreme Court Rule 33.1(d)) and therefore complies with the word-count limitation
of Supreme Court Rule 33.1(g)(iii).

Executed on April 23, 2021.
| LTH
Davin R. TODD
Counsel of Record for
Merit Medical Systems, Inc.
